                      Closeout of M90100035




verbatim several paragraphs from the introduction-of a recent-




     I wrote to the subject 1/4/91, describing the copied
material and requesting an explanation. In his written reply, he
expressed his extreme embarrassment at his ncarelessnessll.He
explained that he had finished most of his proposal when the

                                                -!mm
article came out. He said that. as he acknowledsed in his
                ticle was "the first account of an
                structuren; he therefore felt that e mu
                  the background portion of his proposal "to
highlight the work ofn the authors of the article.- He said that
he knows that he
     made a 'faux pas1. I should have incorporated the
     information from the article ... by reinterpreting it
     in my own words and citing the paper earlier and more
     directly as the source. ... I can only say that my
     intention was to pay tribute to the work of [the
     authors of the article], and certainly not to take
     credit for it. ... I admit my error in quoting directly
     without proper citation and I am deeply sorry.
     The subject is clearly aware of what is proper regarding
copying and attribution, and of his error in this matter. At my
suggestion, the subject sent a letter to the program director
requesting that his proposal be modified to include explicit
indication that the copied material was copied and properly
citing its source as the article. Because the copied material
was all in the background portion of the proposal and the copied
article was properly credited for its scientific contribution, I
feel this case should be closed. I will notify the subject and
the PD by telephone.
